4*
w

. ,&

No.

IN THE
SUPREME COURT OF THE UNITED STATES

FRANK R. STEVENSON

— PETITIONER

(Your Name)

'■km

VS.
THE PEOPLE OF THE STATE OF NEW YORK — RESPONDENT(S)

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The petitioner asks leave to file the attached
without prepayment of costs and to proceed in forma pauperis.
Please check the appropriate boxes:
„/

FILtD
SEP 1 3 2021
RupremeFcourtLusK

0 Petitioner has previously been granted leave to proceed in forma pauperis in
the following court(s):

Appellate Division , N .-Y. CPLR . §1101 (a ) . on '9/12/13 (Appx . ~ H) , and:
United States District Court: E.D.N.Y.. on 10/4/17 (Appx. I).

□ Petitioner has not previously been granted leave to proceed in forma
pauperis in any other court.
/

□ Petitioner’s affidavit or declaration in support of this motion is attached hereto.
[^Petitioner’s affidavit or declaration is not attached because the court below
appointed counsel in the current proceeding, and:
S(The appointment was made under the following provision of law:
N.Y. CPLR §1101(a), on direct appeal only.

or

l^a copy of the order of appointment is appended.

(Signature)

■r*

<>
J
u'

APPENDIX: H

I

tj*'

J

6up«me (Enurt of % Btntz of New fork
Appellate Btuietori: B>ecottb SuMttal HepartWEnt

n

M162100
V/

RANDALL T. ENG, P.J.
WILLIAM F. MASTRO
REINALDO E. RIVERA
PETER B. SKELOS
MARK C. DILLON, JJ.

2013-06438
The People, etc., respondent,
v Frank R. Stevenson, appellant.
(Ind. No. 945/11)

DECISION & ORDER ON MOTION
Motion for Poor Person Relief
and to Assign Counsel

*

Motion by the appellant pro se for leave to prosecute an appeal from a judgment of
the Supreme Court, Kings County, rendered May 28,2013, as a poor person, and for the assignment
of counsel.
Upon the papers.filed in support of the motion and the papers filed in relation thereto,
it is
ORDERED that the motion is granted; and it is further,
ORDERED that the appeal will be heard on the original papers (including a certified
transcript of the proceedings, if any) and on the appellant's and the respondent's briefs; the parties
are directed to. file nine copies of theirrespective briefs and to serve one copy on each other; and it
is further,
ORDERED that the stenographer of the trial court is directed promptly to make,
certify, and file two transcripts of the proceedings of any pretrial hearings, of the plea of guilty or
of the trial, and of the imposition of sentence in this action, except for those minutes previously
transcribed and certified (see 22 NYCRR 671.9); and it is further,
ORDERED that in the event that the case was tried to a Conclusion before a jury, the
stenographer shall also make, certify, and file two transcripts of the minutes of proceedings during
jury selection; and it is further,

fi’—V

ORDERED that the Clerk of the trial court shall furnish one certified transcript of
each of the proceedings set forth above to the appellant's counsel, without charge (see CPL 460.70);
assigned counsel is directed to turn over those transcripts to the respondent when counsel serves the
appellant's brief on the respondent; and it is further,
ORDERED that in the event the stenographer has already prepared a copy of any of
September 12, 2013
Page 1.
PEOPLE v STEVENSON, FRANK R.

s*
-3
W.
<<2

"

APPENDIX: I

o

’ a
SCT-Mi

IN CLERK'S OFFICE
US DISTRICT COURT E.D.N.Y.

OCT 9 h 2017

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK

*

BROOKLYN OFFICE

FRANK R. STEVENSON,
Petitioner,

ORDER TO SHOW CAUSE
17-CV-5251 (MKB)

v.

MICHAEL CAPRA, Superintendent, Sing
Sing Correctional Facility,
Respondent.
MARGO K. BRODIE, U.S.D.J.
Upon the petition for issuance of a writ of habeas corpus pursuant to 28 U.S.C. 2254,
dated 9/28/2017, a copy of which is annexed, it is hereby ORDERED that:
(1) petitioner is granted leave to proceed in forma pauperis;
(2) the Attorney General of the State of New York or, the District Attorney of KINGS
County, as attorney for respondent, show cause before this Court by the filing of a return to the
petition, why a writ of habeas corpus should not be issued;
(3) on or before 12/4/2017, respondent shall serve and file opposition papers and shall
file the original with proof of service with the Clerk of this Court;
(4) respondent shall submit the transcript of the trial to this Court at the time of filing the
opposition papers via hard copies labeled courtesy copy and include a disc copy (where the
file(s) within the disc shall not exceed 5 megabytes each, the attachments shall also not exceed 5
megabytes each), and also file the original transcript of the trial via ECF;
(5) respondent shall in every case, without exception, submit copies of petitioner's and
the District Attorney's briefs on appeal or in connection with proceedings pursuant to C.P.L. 440
at the time of filing the opposition papers;
(6) reply papers, if any, shall be served and filed by the petitioner, within twenty (20)
days of receipt of the respondent’s opposition papers and shall file his reply, if any, with the
Clerk of this Court; and

Mil

H

!
J-

»/

(7) service of a copy of this Order to Show Cause shall be made by the Clerk of this
Court, together with a copy of the petition, to the Attorney General of the State of New York,
120 Broadway, New York, New York 10271, and the District Attorney of KINGS County, and
by mailing a copy of this order to the petitioner.

SO ORDERED:
s/ MKB
MARGO K. BRODIE
United States District Judge .

DATED:

Brooklyn, New York
October 4, 2017

